WAIVER

Supreme Court of the United States

No. 20-740
dim Bognet, et al. v. Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Petitioners) (Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:

“"O Please enter my appearance as Counsel of Record for all respondents.

Ww There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Montgomery County Board of Elections

 

w I am a member of the Bar of the Supreme Court of the United States.

O Jam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature LB = EZ :
Date; December 21, 2020

(Type or print) Name Brian O'Neill Phillips
W Mr. O Ms. O Mrs. O Miss

Firm_Montgomery County Solicitor's Office

Addregs_ One Montgomery Plaza, 425 Swede St., Suite 800

City & State_Norristown, PA Zip 19404

Phone _(610)278-3033 (215)872-8379
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Cc: Nicholas Varone, Esq.

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
